<html>
<title> - [H.A.S.C. No. 111-15] COMBATING PIRACY ON THE HIGH SEAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-15] 

                   COMBATING PIRACY ON THE HIGH SEAS 

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 5, 2009

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-667 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     



















                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
              Phil MacNaughton, Professional Staff Member
               Jenness Simler, Professional Staff Member
                    Caterina Dutto, Staff Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 5, 2009, Combating Piracy on the High Seas.......     1

Appendix:

Thursday, March 5, 2009..........................................    33
                              ----------                              

                        THURSDAY, MARCH 5, 2009
                   COMBATING PIRACY ON THE HIGH SEAS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gortney, Vice Adm. William E., USN, Commander, U.S. Naval Forces 
  Central Command................................................     6
Mull, Ambassador Stephen, Acting Under Secretary for 
  International Security and Arms Control, U.S. Department of 
  State..........................................................     9
Pike, Daniel W., Acting Principal Director, Office of African 
  Affairs, U.S. Department of Defense............................     4
Wycoff, Karl, Acting Deputy Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................    11

                                APPENDIX

Prepared Statements:

    Coulter, Michael, Principal Deputy Assistant Secretary of 
      Defense for International Security Affairs, U.S. Department 
      of Defense.................................................    37
    Gortney, Vice Adm. William E.................................    39
    Mull, Ambassador Stephen.....................................    60
    Wycoff, Karl.................................................    66

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

                   COMBATING PIRACY ON THE HIGH SEAS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 5, 2009.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today, the committee meets to 
hear testimony on the challenge of piracy on the high seas and 
the United States government efforts to deal with this 
challenge.
    Joining us today, Vice Admiral William Gortney, Commander, 
United States Naval Forces, Central Command; Mr. Daniel Pike, 
Acting Principal Director of the Office of African Affairs 
within the Office of the Secretary of Defense; Ambassador 
Stephen Mull, Acting Under Secretary for International Security 
and Arms Control from the State Department; and, Mr. Karl 
Wycoff, Acting Deputy Assistant Secretary for African Affairs.
    We certainly thank you for being with us today.
    If we had called such a hearing two years ago, many might 
have wondered why. Until recently, piracy seemed a thing in the 
past, part of the stories we tell our children or part of the 
history lessons about the Barbary pirates or Blackbeard.
    Recent events in the Gulf of Aden and off the coast of 
Somalia, however, make this very much a current and important 
issue for American national security.
    Piracy fits in the spectrum of low intensity conflict, with 
threats like terrorism and cyber warfare. These threats are all 
fed, in part, by globalization, which radicalizes significant 
numbers of people who feel alienated and disenfranchised and 
who seek to undermine the security and prosperity of those they 
hold responsible.
    At the same time, globalization can spread the reach and 
impact of these kinds of attacks across the world, including 
the homeland, certainly more than just a cost of doing 
business.
    The United States has always been a seafaring nation. Our 
ability to project power globally is critically linked to our 
presence on the seas, the strength of our Navy and our 
commitment to keeping the lanes of trade and communication 
open.
    The maintenance of free trade and free passage of vessels 
are crucial components of our national security. At a time when 
we remain dependent on foreign energy supplies, the free 
movement of international shipping is very much a national 
lifeline.
    So it is disturbing to see the trends of the last several 
years. While piracy incidents have come down in other critical 
checkpoints, like the Straits of Malacca, due to the concerted 
efforts of neighboring states, incidents in the Gulf of Aden 
have exploded.
    In 2008, there were 293 attacks worldwide, with 111 of them 
occurring in the Gulf of Aden or the east coast of Somalia.
    The international community, led by the United States, has 
taken some key steps, and I commend you for it. First, combined 
Joint Task Force 151 has brought together Naval forces and our 
allies and has sparked support for the mission from friends as 
diverse as Russia and China.
    It has helped focus the attention of many nations in 
pursuit of our joint interest in maintaining free movement of 
vessels in the Gulf of Aden.
    Second, the efforts of the Kenyan government, through the 
agreements with the United States and United Kingdom, should be 
applauded as a promising way to ensure greater prosecution and 
to raise the cost of doing business for these pirates.
    Third, the international shipping community, working with 
the combined joint task force, has made some progress in 
improving and disseminating their best practices.
    More must be done and must be done quickly. My own view is 
that the international arrangements coordinated by Central 
Command should be made more formal, more institutionalized. We 
need an international counter-piracy league under the auspices 
of the United Nations.
    What is clear to me is that the United States must remain a 
leader in these efforts, but at the same time, we know that 
neighboring nations must get involved and the collective weight 
of the international community must be felt in this regard.
    We know, too, that there will be no lasting solution to the 
problem of piracy in the Gulf of Aden until Somalia's failed 
state is addressed. I fear that the situation on the ground in 
Somalia will be repeated in other failed states and states with 
vast areas of ungoverned territory within their borders.
    Piracy cannot exist on this scale and with this level of 
brazenness if there was effective government control of that 
nation.
    I look forward to the witnesses' thoughts on what can be 
done to influence Somalia's stability and, in the absence of 
such stability, what additional steps can be taken to curb 
piracy in that region.
    The issue of piracy is a complex one. Like issues of 
economic instability and global climate change, it is a 
nontraditional national security issue, while, at the same 
time, reminding us of the historic persistence of this problem.
    Piracy goes to the hard core of American national security 
and economic interests. It also demonstrates that any solution 
must be both multifaceted and multinational, coordinating the 
world's naval powers, the United Nations, the international 
shipping community and the nations that neighbor Somalia.
    I am confident that today's hearing will lay some of the 
options for addressing this issue on the table.
    Before I turn to the witnesses, let me turn to the ranking 
member, my good friend from New York, John McHugh, for any 
remarks he would like to make.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. I thank my good friend and my leader, the 
chairman, for his gracious comments.
    Also, let me add my words of welcome to our distinguished 
panelists.
    As the chairman very ably outlined, it may seem something 
of a disconnect today for us to be talking about something as 
ancient really as piracy, particularly when this committee 
concerns itself on a routine basis with ballistic missile 
defense, nuclear warfare, those other more modern-sounding 
problems that beset us.
    But that notwithstanding, as the chairman maintains, and I 
fully agree, the challenge of maintaining the sanctity and 
security of our shipping lanes and semblance of the sanctity 
and security on the high seas falls heavily upon the agenda of 
our national security interests.
    Mr. Chairman, I would ask that I just have unanimous 
consent to enter my full comments into the record and, in lieu 
of that--excuse me--at that same time, just make a few points, 
if I may.
    The Chairman. Without objection, of course.
    Mr. McHugh. First, at the risk of stating the obvious, 
piracy is not new, as the chairman, again, discussed. 
Throughout history, we have been dealing with the events of 
pirates attacking ships and, certainly, most notably in our 
nation's history, that of the Barbary pirates who operated from 
the northern coast of Africa from the late 1500s into the early 
1800s.
    In recent testimony to the Transportation and 
Infrastructure Subcommittee, a senior policy analyst from RAND 
stated, ``Piracy is, above all, an economically driven 
phenomenon,'' and I think that is an important point, one that 
the chairman alluded to, as well, and it is important that we 
remind ourselves that piracy, at its root, is often not driven 
by ideology.
    But I certainly hope you gentlemen may have the chance to 
talk a bit today about your thoughts regarding the possibility 
that piracy may well be linked in these days with terrorist 
agendas, by certain Islamist factions seeking to expand 
particularly control in Somalia.
    Second, I think it is important to remember piracy is a 
criminal activity. International law defines piracy as such a 
criminal act and requires all nations to work effectively 
together to suppress that activity, and, therefore, counter-
piracy efforts must include coordinated maritime enforcement 
provisions.
    The chairman talked about the Combined Task Force 151 (CTF-
151) and it is an important coalition. We have 20 countries 
operating, as you gentleman all know so very well, in combating 
piracy in the region, including Russia, China, India, Germany, 
Denmark and Iran.
    But not all of those nations, again, as you know, are part 
of CTF-151 and, as we have seen, often operate under very 
different rules of engagement, and I would very much appreciate 
comments on how the Navy is working with members of CTF-151 and 
other members of the international community, as well as the 
U.S. Coast Guard, in the Gulf of Aden and what challenges may 
be out there with respect to those differing rules of 
engagement.
    Thirdly, I think we have to put this in a broader context. 
There is a significant increase in the number of attacks in the 
Gulf of Aden, particularly, and the chairman cited the data 
that shows how the larger percentage of worldwide attacks has 
begun to focus very heavily, statistically, in that region and 
in the Somali coastal areas.
    But just last month at a press conference, Vice Admiral 
Gortney, you may recall, had commented that, ``Your chance of 
being successfully pirated is 0.13 percent.''
    In other words, as significant a problem as this is, the 
chances of being a target of piracy remains low. That is 
important, not to diminish the challenge before us, but rather 
to try to put it, as I said, in a larger context.
    The U.S. Navy and America, of course, has committed two of 
its largest surface combatants and the only deployable San 
Antonio class amphibious transport ship to counter-piracy 
efforts in this region.
    In short, we are throwing thousands of soldiers and--excuse 
me--sailors and Marines at this fight and almost a dozen 
vessels. And I think we have to ask ourselves, given the 
demands on U.S. forces in support of Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) and Naval Forces 
Central Command's (NAVCENT's) priority mission of partnership 
strength and presence, how do we use this challenge to better 
integrate ourselves with our allies and our international 
partners to make sure that we are not carrying, as perhaps one 
might argue in other parts of the world, too great a burden.
    With that, Mr. Chairman, let me just say again how happy I 
am that you had the foresight and concern to call this hearing 
and look forward to our witnesses' comments and the remainder 
of this event.
    And I will yield back.
    The Chairman. Thank the gentleman from New York.
    Four witnesses in this order: Mr. Pike, Vice Admiral 
Gortney, Ambassador Mull, and Mr. Wycoff.
    Mr. Pike, you are on. You will have to get very, very close 
to the microphone and turn it on.
    Mr. Pike. Good morning, Chairman Skelton.
    The Chairman. A little closer.
    Mr. Pike. We will try this.
    The Chairman. There you go, okay, very well.

STATEMENT OF DANIEL W. PIKE, ACTING PRINCIPAL DIRECTOR, OFFICE 
  OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF DEFENSE, FOR MICHAEL 
                            COULTER

    Mr. Pike. Good morning, Mr. Chairman, Ranking Member 
McHugh, members of the House Armed Services Committee.
    Thank you for the invitation to appear before you today to 
discuss counter-piracy operations in the Gulf of Aden.
    My name is Daniel Pike, the acting principal director of 
the Office of African Affairs, and I am speaking on behalf of 
Mr. Michael Coulter, the principal deputy assistant secretary 
of defense for international security affairs, who is ill and 
could not attend today.
    The Chairman. Excuse me. Just a little closer, because I am 
having a problem----
    Mr. Pike. Just a little closer.
    The Chairman. Push it down right in front of you.
    Mr. Pike. Is this better?
    The Chairman. Almost eat it, yes.
    Mr. Pike. Okay. Mr. Mike Coulter could not be here today. 
His office provides defense policy guidance for Europe, Africa 
and the Middle East.
    In a moment, I will introduce Vice Admiral Gortney, the 
naval commander of our military operations in the Gulf of Aden. 
He will go into details of our efforts to combat piracy, but 
before he does, I would like to take a brief minute to outline 
how we see piracy in the broader policy context.
    Throughout history, we have depended on maritime highways 
for a global transportation system that deliver goods and 
materials around the world. The concept of unimpeded sea lanes 
underpins the very meaning of an effective national security 
strategy, a strategy primarily based on global engagement, and 
to protect and sustain the global interconnected economy system 
through which we maintain our way of life.
    Today, freedom of access means the awareness and control of 
the entire spectrum of the maritime domain to ensure its access 
to good actors and deny its access to bad actors.
    From experience, we have come to learn that no one nation 
can singlehandedly secure every ocean and every waterway around 
the world and because the oceans play an indispensible role in 
the safety, security and economic stability of the 
international community, all nations have a vital interest in 
ensuring that the maritime domain remains secure and open for 
the free and legitimate use of all.
    For these reasons, the recent uptick in piracy in the Gulf 
of Aden has caused likeminded leaders and industry and 
government to unite to discuss what can be done collectively to 
unhinge and defeat the scourge of piracy.
    We, along with a number of other countries and 
international organizations, have now committed additional 
resources to this task. As you will hear from Vice Admiral 
Gortney, we are partnering together with traditional allies and 
with new partners to achieve international interests.
    We will, in our collective effort, use the seas to unite 
and not divide.
    The shaping function of this mission must be interagency, 
as well as international. Only some of the tools required to 
shape the security environment and to reach into the ungoverned 
sea spaces reside in the U.S. or international navies.
    The root causes of piracy reside on land. The absence of a 
strong government in Somalia remains the single greatest 
challenge to regional security and provides freedom of action 
for those engaged in piracy along the Somali coast.
    We are, therefore, reaching out to interagency 
participants, with their tools, and even further into the 
private sector. The net beneficiaries of these efforts in the 
international community must also be proud and robust 
contributors.
    The Department of Defense co-chairs with the Department of 
State an interagency counter-piracy steering group that 
addresses the full spectrum of anti- and counter-piracy 
efforts, from piracy prevention to interruption and termination 
of acts of piracy, to ensure the accountability of pirates.
    The Defense Department is also supporting the State 
Department through the recently established contact group on 
counter-piracy off the coast of Somalia, an international forum 
that is encouraging countries with a direct interest in 
countering piracy, including flag and crew states, to provide 
counter-piracy forces, track piracy financing, and accept 
custody of and prosecute suspected pirates when apprehended.
    Mr. Chairman and members of the committee, thank you again 
for this opportunity to appear before you today.
    Now, let me introduce and turn things over to Vice Admiral 
Gortney. Following Vice Admiral Gortney's comments, I will be 
happy to take any questions.
    [The prepared statement of Mr. Coulter can be found in the 
Appendix on page 37.]
    The Chairman. Thank you so much, Mr. Pike.
    Admiral Gortney, please. Get real close. We can't hear it.

STATEMENT OF VICE ADM. WILLIAM E. GORTNEY, USN, COMMANDER, U.S. 
                  NAVAL FORCES CENTRAL COMMAND

    Admiral Gortney. There we go.
    The Chairman. A little closer.
    Admiral Gortney. Good morning, Chairman Skelton.
    The Chairman. A little closer.
    Admiral Gortney. Good morning, Chairman.
    The Chairman. There you go.
    Admiral Gortney. Ranking Member McHugh and members of the 
House Armed Services Committee.
    Thank you for the opportunity to testify before you today 
on our coalition counter-piracy operations in the Central 
Command area of operation.
    I have a full opening statement and request that my full 
testimony be submitted for the record.
    The Chairman. Without objection.
    Admiral Gortney. I appreciate the opportunity to discuss 
the accomplishments that have been made over the past several 
months and to identify some of the challenges that lie ahead.
    My name is Vice Admiral Bill Gortney, and I am the 
commander of U.S. Naval Forces Central Command, headquartered 
in the Kingdom of Bahrain. I took command of NAVCENT at the 
beginning of July, but have been operationally deployed to the 
region throughout my Navy career.
    As the NAVCENT commander, I am the Naval component 
commander for General Petraeus at U.S. Central Command.
    I also command two additional organizations. I serve as the 
commander of the United States Fifth Fleet, the Navy's numbered 
fleet commander, and, most importantly, in terms of this 
hearing, I serve as the commander of the combined maritime 
forces, an international coalition of more than 20 nations of 
the willing who provide people, ships and aircraft in the 
region.
    There are national mandates that limit the participation of 
some of our coalition partners, but this remains a cooperative 
and multinational effort.
    As most of you know, acts of piracy spiked in late August, 
but the recent history of piracy does not start there. Several 
years ago, we started to see an increase in piracy off the east 
coast of Somalia. At that time, it was routine for the merchant 
vessels to transit within about 30 miles along the coast.
    In response to those attacks, Fifth Fleet and the shipping 
industry moved the transit lane further off the coast, and it 
has worked and the rate of attacks decreased, returning to just 
a few per year.
    That situation changed in the middle of August, when a new 
clan of Somali pirates began to attack ships in the Gulf of 
Aden to the north of Somalia. The number of ships pirated went 
from three to 12 in just a few days and, ultimately, we knew 
the solution to the problem of piracy is ashore in Somalia 
itself.
    Therefore, I focused the coalition maritime efforts on the 
security and stability prevention operations at sea that would 
give the international community time to address the long-term 
solution.
    In late August, as commander of the combined maritime 
forces, I directed the establishment of the maritime security 
patrol area in the Gulf of Aden and we did that in concert with 
the international maritime organization. We have had coalition 
ships and aircraft patrolling the area ever since.
    Now, the maritime security patrol area is just one part of 
a counter-piracy campaign plan developed by the coalition 
staff. The plan was designed to complement and further the 
efforts of the political, diplomatic and industrial maritime 
communities.
    The operational design of the plan was developed with the 
purpose of outlining our efforts to engage the international 
community to help fix this international problem along three 
primary lanes--a political/legal, an informational and 
industrial, and a military.
    We focused our counter-piracy efforts on these three main 
areas--to increase international naval presence, to improve the 
defensive measures from the shipping industry themselves, and 
to internationalize or create an international legal framework 
for the resolving of the piracy cases.
    Since late August, there have been significant strides 
made. To date, we have seen forces from the U.S., the U.K., 
Canada, China, Denmark, France, Germany, Greece, India, Italy, 
Malaysia, Netherlands, Russia, Saudi Arabia, Spain, Turkey and 
Yemen.
    Some of these forces operate within alliances, such as the 
North Atlantic Treaty Organization (NATO) or the European Union 
(EU), some as part of the combined maritime forces coalition, 
and some independently representing their own nation's 
interests. Additional forces from Bahrain, Jordan, Japan, 
Singapore, Republic of Korea, Sweden, Belgium and Poland, are 
expected to participate in the coming months.
    The shipping industry has also been at the forefront. We 
have seen countless examples of shipping companies and 
individual merchant mariners taking proactive measures to serve 
as the last line of defense against pirates, and these are 
really armed criminals at sea.
    On the operational side, I initially gave the mission to 
the commodore of one of our existing combined task forces, and 
that was the Combined Task Force-150 (CTF-150). However, I did 
so knowing that it was an additional mission for an already 
busy operational commander.
    More importantly, I did so very carefully, because at that 
time, I knew that some navies in our coalition did not have the 
authority to conduct counter-piracy operations from their 
government and if we have one red line in our coalition, it is 
that we will never ask a member of the coalition to be involved 
in operations that they do not have the authority from their 
national authority to do so.
    As a result of the complexity of the operation in that 
portion of our area of responsibility, I determined that it was 
necessary and prudent to establish a separate task force with a 
specific mission and mandate to conduct counter-piracy 
operations.
    In early January, we established CTF-151, based on the 
United Nations Security Council Resolutions 1816, 1838, 1846 
and 1851. The task force was operational by the middle of that 
month. Since that time, we have had several nations join the 
task force and have had formal indications from others who have 
stated they will be sending ships and/or aircraft in the coming 
months.
    The efforts of CTF-151 are critical to the tactical 
coordination and deconfliction efforts with all of the 
international naval forces' operation in the Gulf of Aden. The 
operational coordination is handled in my headquarters at the 
combined maritime forces in Bahrain. We have incredible 
examples of international cooperation, ranging from personnel 
exchanges to operational mission coordination to maximize the 
efficiency of our efforts.
    CTF-151 and other cooperating naval forces have encountered 
approximately 250 pirates. A 121 were disarmed and released, 
117 disarmed and turned over for prosecution, and nine are 
pending final disposition. Seven suspected pirates taken by 
CTF-151 two-and-a-half weeks ago were turned over this morning 
to Kenyan authorities in the Port of Mombasa with full 
evidentiary packages.
    Higher capacity has been further impacted by the seizure or 
destruction of 28 pirate ships and the confiscation of the 
pirates' tools of the trade, including 133 small arms, 28 
rocket-propelled grenades, 51 rocket-propelled grenade 
projectiles, and 21 ladders and grappling hooks.
    Ultimately, piracy is a problem that starts ashore and 
requires an international solution ashore. We made this clear 
at the offset of our efforts. We cannot guarantee safety in 
this vast region. Our role in preventing some of these attacks 
is only one part of the solution to preventing further attacks.
    Historical precedent can be found in our nation's 
encounters with the Barbary pirates. We have been successful 
not only in our coalition efforts, but in communicating and 
coordinating with other naval forces deployed to the region, as 
well as working with the merchant shipping industry to share 
best practices and lessons learned.
    Lastly, I would like to take a moment to acknowledge the 
tremendous efforts of the sailors, Marines, Coast Guard 
personnel and civilian navy mariners under the command of Rear 
Admiral Terry McKnight, the CTF-151 commander. They have truly 
made a difference.
    Mr. Chairman and members of the committee, I want to thank 
you for inviting me to appear here today and I will be happy to 
answer your questions.
    [The prepared statement of Admiral Gortney can be found in 
the Appendix on page 39.]
    The Chairman. We thank you. We especially thank you for 
coming all the way back to testify. We are most appreciative.
    Ambassador Mull.

 STATEMENT OF AMBASSADOR STEPHEN MULL, ACTING UNDER SECRETARY 
FOR INTERNATIONAL SECURITY AND ARMS CONTROL, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Mull. Thank you very much, Mr. Chairman and 
Ranking Member McHugh. Thanks very much for the opportunity to 
appear again before the committee today, especially with such 
distinguished colleagues here on the panel.
    As you said, Mr. Chairman and Ranking Member McHugh and 
Admiral Gortney mentioned, freedom of the seas has been a 
bedrock interest for the United States foreign policy from the 
very beginning of our republic. It is the key to our prosperity 
and key to our security. That was true at the beginning of the 
republic, as it is today, when pirates pose a growing threat to 
a key economic chokepoint off the Horn of Africa.
    As piracy attacks in this region almost tripled from 2007 
until 2008, with the numbers of innocent crew members held 
hostage growing into the hundreds and ransoms running as high 
in 2008 as $30 million, which, in turn, fuels the growth of 
organized crime and the breakdown of authority in Somalia, the 
United States government decided to act by adopting a strategy 
on four distinct tracks.
    First, the diplomatic track to strength international 
authority and to coalesce multilateral support to counter 
piracy. Second, work with industry to press for better efforts 
for their own self-defense. Third, to improve judicial capacity 
among states in the region to prosecute and penalize pirates. 
And fourth, to strengthen our own military involvement, as well 
as the involvement of other militaries, to counter the force of 
piracy.
    On these four tracks, working together, I think we have 
made good progress just in the past few months. In the United 
Nations, the United States played the leading role in passing a 
series of U.N. Security Council resolutions, most recently, 
Security Council Resolution 1851, which Secretary Rice was in 
the chair to organize support for up there at the Security 
Council, and that extended Chapter Seven authority to enable 
our militaries, in conjunction with our foreign partners, to 
take military action against pirates.
    Acting on that resolution, in January, the United States 
formed an international contact group, which today has grown to 
encompass 28 states and six international organizations, who 
agreed to pool their efforts to coordinate the fight against 
piracy, and that contact group has formed four separate 
subgroups to look at the military coordination, military and 
intelligence coordination piece of counter-piracy, to improve 
judicial cooperation among regional states, to liaise better 
with industry, and, fourth, to coordinate better diplomatic 
activity.
    As Admiral Gortney mentioned, we put meat on the bones of 
this framework very quickly with the standup of Coalition Task 
Force 151, which now features 23 ships from a broad range of 
militaries, including group operations, such as the European 
Union's Operation Atalanta, successive NATO operations, and 
other contributions from countries like China, India and 
Russia, and the others that the admiral mentioned.
    We also in January concluded a memorandum of understanding 
with the Kenyan government that we, in fact, put into force 
today, as the admiral mentioned, with the delivery of seven 
suspected pirates that U.S. forces captured a couple of weeks 
ago.
    Separately, we have worked with the international maritime 
organization to produce a booklet of guidelines that advises 
international shippers on how they can best protect themselves 
against pirate attacks.
    We have worked with our military partners to create a 
transit lane through the Gulf of Aden that has an enhanced 
military presence to further protect international shipping 
from the threat of piracy.
    The results of all of these efforts combined have been 
encouraging. The rate of successful piracy attacks, which was 
64 percent in October, plummeted to only 17 percent in February 
and as of today, there are only six ships held hostage compared 
to 14 ships that were held hostage towards the end of last 
year.
    While weather, bad weather at this time of year and payout 
of ransoms certainly had an impact in lowering this, I think it 
is undeniable that important factors have been this sustained 
and coordinated diplomatic and military effort.
    The benefits from this effort, I think, will go far beyond 
just stopping pirates. This issue has showcased American 
leadership in multilateral diplomacy. It has opened 
constructive new channels of communication with the Chinese and 
Indians and other militaries.
    It has improved our overall maritime awareness in a very 
strategically important region and it has improved the 
prospects for diplomatic, military and further judicial 
coordination in the region.
    Longer term, I think this cooperation could form the 
foundation for a new regional security, maritime security 
framework, with regional states and outside contributors, like 
our European allies and ourselves, and this new framework could 
include a whole range of features that I think would improve 
the security of the region, as well as our own security.
    It could offer a framework for more confidence-building 
measures among the military. It could offer a framework for 
exercises to build interoperability among these militaries and 
to help them improve their capabilities in patrolling the seas, 
in conducting interdiction operations, and responding to 
humanitarian emergencies.
    This is a model that we have followed very successfully 
with our partners in southeast Asia in the Malacca Straits, 
which has seen a dramatic decline in incidents of piracy, and 
which has now featured much better and much more integrated 
military and security cooperation among our partners there in 
southeast Asia.
    Finally, no discussion about piracy in the region would be 
complete without a mention of Somalia. There is no doubt that 
piracy is a symptom of Somalia's failure as a state. While our 
efforts to counter piracy described here are strictly focused 
on piracy, in recognition of the broader problem, the U.S. 
separately supports the U.N.-led Djibouti peace process, which 
provides a mechanism for political reconciliation, and we also 
cooperate with a broad international group of donors to support 
the recovery and reconstruction of Somalia.
    Those efforts face a difficult role and my colleague, Mr. 
Wycoff, will address them in greater detail. When those efforts 
succeed in Somalia and the piracy threat goes away, I am 
confident, based on the great work that Admiral Gortney and our 
other forces have done in the region, will provide that 
foundation for a much more improved security climate in the 
critically important Horn of Africa region.
    Thank you very much.
    [The prepared statement of Ambassador Mull can be found in 
the Appendix on page 60.]
    The Chairman. Thank you, Ambassador.
    Mr. Wycoff.

 STATEMENT OF KARL WYCOFF, ACTING DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Wycoff. Thank you, Chairman.
    I have a short statement that addresses some of the 
questions and observations that the committee raised in its 
opening statement.
    The Chairman. Get real close. We are having difficulty 
hearing up here. That is why I want you all to get close. The 
acoustics in this room are not very good.
    Mr. Wycoff. All right. Mr. Chairman and members of the 
committee, thank you for affording me the privilege of 
discussing the relationship between the conditions in Somalia 
and the blight of piracy in the waters off its shores.
    Somalia piracy, offshore, is borne out of instability and 
insecurity onshore. Consequently, a complete, long-term and 
permanent solution to the piracy problem off the coast of 
Somalia will require a multifaceted strategy that leads to 
political and economic stability on the ground in Somalia and 
the establishment of basic security.
    To protect U.S. national interests, our immediate policy 
objectives in Somalia are to help Somalia regain political and 
economic stability, respond to the humanitarian needs of the 
Somali people, and eliminate the threat of terrorism.
    Sustainable change in Somalia requires a comprehensive 
regional strategy and a political solution to conflict that is 
authored and implemented largely by Somalis themselves and not 
by outsiders.
    In this regard, we continue to support the United Nations-
led Djibouti peace process, which has provided the mechanism 
for Somalis to make important political and security decisions 
in recent months.
    We also continue to work with a broad international group 
of donors to support the U.N.-led process, including the 
African Union and the regional Intergovernmental Authority on 
Development.
    The Djibouti process has led to the establishment of a new 
unity government with a respected leader as president, Sheikh 
Sharif Sheikh Ahmed, and a well-experienced prime minister, 
Omar Abdirashid Ali Sharmarke. The prime minister has now 
appointed a cabinet. The new team represents a broad cross-
section of Somali clans and political opinions.
    The next step is for this unity government to foster deeper 
credibility with Somalis by establishing itself in Mogadishu, a 
process that has already begun, and to facilitate the delivery 
of services there and in surrounding regions of Somalia.
    The United States worked with the other members of the U.N. 
Security Council Somalia Sanctions Committee to adopt 
Resolution 1844 in November of 2008, which empowers the 
committee to designate spoilers of Somalia's reconciliation 
process for targeted sanctions.
    While the recent political progress is encouraging, no 
political solution can be sustainable, even if widely 
supported, unless it is anchored by a robust security force 
capable of protecting the unity government and its activities. 
We encourage efforts by the international community to support 
the unity government as it stands up such a security force.
    A good way to address African conflicts or security issues 
is with African forces and expertise. Africans know and 
understand their terrain well and have a paramount vested 
interest and stake in any outcome. In this regard, we continue 
to support the African Union Mission in Somalia, known as 
AMISOM, and are especially appreciative for the governments of 
Uganda and Burundi for sending soldiers to do the difficult 
work associated with peacekeeping in Somalia.
    We are currently funding the deployment of additional 
AMISOM battalions, which we hope will bring the total number of 
African Union forces on the ground in Somalia to over 5,000 
within the next few months. Nontraditional donors to Somalia, 
such as Gulf Arab states, have indicated a possible willingness 
to support AMISOM and the unity government security force.
    Mr. Chairman, it almost goes without saying that security 
must improve in order for displaced people to return home. 
Without political stability, the humanitarian situation will 
remain dire.
    The U.S. remains the largest bilateral donor of 
humanitarian assistance to Somalia. We hope the relocation of 
the unity government to Somalia and the standup of the joint 
security forces in Mogadishu will help improve security 
conditions at the community level and produce arrangements to 
facilitate humanitarian access so emergency assistance reaches 
those most in need.
    I welcome your comments and your questions.
    Thank you, sir.
    [The prepared statement of Mr. Wycoff can be found in the 
Appendix on page 66.]
    The Chairman. Mr. Wycoff, thank you very much.
    Admiral, tell us a typical example of piracy takeover of a 
ship and what happens from beginning to end.
    And my first question is why in the world don't they just 
pull up the ladder. Why don't you give us a typical example of 
what happens from the very beginning to the end?
    Admiral Gortney. Yes, sir. As you mentioned, as you 
implied, to have a piracy event, you need two things--you need 
a pirate and you need a ship willing to get pirated.
    And if the coalition is out there with ships, airplanes and 
helicopters, there aren't any pirates. If they see us, they are 
fishermen. If they don't see us, they are potentially pirates 
and, therefore, if we are not around, they will attempt to 
attack a type of vessel that is susceptible to attack, which is 
based on the speed of the vessel and the freeboard or the 
height above the first deck to the water.
    If it is a low freeboard and the ship is doing about 13 
knots or less, it has got a high probability of being attacked, 
to be picked out for attack. If it has a high freeboard and 
going over about 15 knots, high freeboard or doing about 15 
knots, it is too hard for the pirates to get on board and they 
will bypass those vessels.
    So if they see one of these vessels that we call low and 
slow and they are able to get near it, they will pull up 
alongside with their very small boat that was probably towed 
out to the area where the merchant ships are by a mother ship, 
and that mother ship, in most cases, almost all cases, is a 
pirated vessel itself, a dow of some sort, and it looks just 
like all of the fishing dows out there that tow their skiffs to 
tend their nets that are out there.
    They will get in their skiffs. They will pull up alongside 
and intimidate either with the AK-47s or Rocket-Propelled 
Grenades (RPGs), in some cases, actually shooting both to get 
the captain to stop.
    Early on, we saw instances where the shipping industry 
did--there are occasions when the ladder was even down and they 
were able to just come up the Jacob's ladder.
    Since then, you are seeing they put up grappling hooks, 
ladders to get up on board, and intimidate the crew to stop the 
vessel. The time from the initial attack until on the vessel is 
about a 15-minute window of opportunity and if we aren't there 
to prevent them from getting on board in that 15-minute window 
of opportunity, then if we have--if they are successfully on 
board and they stay on board, then we are in a hostage 
situation and the pirates take it to the east coast of Somalia 
and work the negotiation process with the shipping company that 
is responsible for that vessel.
    We see the attacks occur in the morning and with a sea 
state less than three feet. We did have an attack last week 
before the sunrise. We saw that as a change of Tactics, 
Techniques, and Procedures (TTP), but the sea states and seas, 
they are very small vessels. We watch very carefully. If it is 
less than three feet in the morning, we anticipate these 
fishermen become suspected pirates.
    The Chairman. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Just a quick question first, and I guess I would direct it 
to the admiral, but anybody who may have an answer.
    I am sure we are categorizing these acts of piracy against 
a nation ship or the flag that has been seized. Anybody seem 
immune? Anybody just kind of never had a ship snatched?
    Admiral Gortney. I would say no one is immune out of the 
pirates' intent to get on a vessel, not by a nation state. It 
really becomes a look for targets of opportunity more than 
anything else.
    We have seen no instances of not targeting a particular 
nation's flag or targeting one. It is just an opportunity that 
they can get on board.
    Mr. McHugh. So we have a lot of misery in our company, a 
lot of folks affected.
    I mentioned in my opening comments the traditional historic 
root cause of piracy as being financially, economically driven. 
There are social factors, of course, on the ground that, Mr. 
Ambassador, you and others have commented upon and, obviously, 
we need to deal with that.
    But having just returned from Afghanistan, of course, the 
poppy, depending on whose data you use, it is $100 million to 
$500 million a year in Osama Bin Laden and the Taliban's 
pocket.
    Do we see any connection between the activities on the 
seas, the piracy and the giving up of the booty, if you will, 
as to Islamic or radical factions operating in the war in 
Somalia or elsewhere?
    Admiral Gortney. No, sir, we do not. We look very, very 
carefully for a linkage between piracy and terrorism or any 
kind of ideology and we do not see it. It would be a 
significant game changer should that linkage occur.
    But we have not seen it. We watch very carefully for it. 
This is financially motivated criminal activity at sea because 
they have no alternatives to make a living other than that.
    Mr. McHugh. As I mentioned, as well, last question and then 
I will be happy to yield back, Mr. Chairman, CTF-151 is a 
unique undertaking and I commend you and everyone, all our 
nation's partners for being involved, that there are nations 
beyond that and some bring both an interesting and a first 
presence.
    This is really, for the Chinese, this is a historic 
deployment for them, way beyond their traditional bounds of 
influence and their sea lanes.
    How would you describe the cooperation and the differing 
rules of engagement, particularly from your perspective, with 
the Chinese who are operating in that same theater?
    Admiral Gortney. Piracy is defined as a universal crime, 
and all navies are authorized and obligated to conduct counter-
piracy operations.
    The founding rules of engagement that we are using are all 
based on United Nations Security Council resolutions, but it 
comes down to the individual nation's interpretation of some of 
those authorities and the aggressiveness that they might 
pursue.
    In some instances, nation's may only be able to respond to 
a piracy attack. Other nations that have aligned themselves 
have sent them down there for a pure counter-piracy mission, 
either inside 151, associated with 151 or underneath their 
national mandate.
    They have authorities to conduct and, I would say, 
offensively conduct counter-piracy operations.
    The coordination effort with that number of nations that 
are not aligned in a clean chain of command is not 
insignificant, but naval offices know how to get the job done.
    At the operational level, the coordination is done in my 
headquarters. We have NATO and E.U. liaison officers in my 
headquarters in the combined maritime forces embedded in my 
combined maritime forces staff as part of the team that is 
putting it together.
    Through United States Pacific Command (PACOM), we have 
offered for the Chinese if they would like to put a liaison 
officer into headquarters, as well.
    At the tactical level, though, we leave it to CTF-151, 
previously, it was 150, to do the tactical deconfliction on the 
waterfront, that has to occur on the waterfront. We 
communicate, we share all of our information that is 
unclassified. We keep nothing from anybody that is down there 
assisting with it.
    And then how we communicate with those nations, with those 
navies that are down there on the waterfront is a function of 
the technology that they have. If they are part of NATO, E.U., 
the combined maritime forces, they have our CENTRICS, which is 
our coalition Internet communication method, the chat rooms.
    In the case of the Russians, we have to do it over bridge-
to-bridge radio. That is the only mechanism.
    With the Chinese, we communicate via unclassified e-mail 
with their Yahoo account and they are actually giving us their 
intentions via that process, where they are going to go the 
next day. That better helps us put the ships where they are not 
going to be at that tactical deconfliction.
    We have had visits by the Russian commander onboard our 
flag ship, meeting with Admiral McKnight, and we have made that 
offer to the Chinese, who have said they would accept it, but 
we just haven't been able to make the meeting occur in person.
    Mr. McHugh. Thank you, Admiral.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Before I call on Mr. Ortiz, let me ask. The 
pirates get the ship. They control the ship. Then what normally 
happens?
    Admiral Gortney. The pirates, usually, they will take the 
vessel or have the master drive the vessel to the northeast 
coast or the tip of the Horn of Africa. Another crew gets on 
board and then they sail it down to one of the anchorages on 
the east coast of Somalia, roughly within a mile of--inside of 
a mile of the shoreline, and another crew, another group of 
pirates gets on board to maintain that ship while the 
negotiation process goes on.
    The Chairman. How do they do the negotiations?
    Admiral Gortney. That is worked out through a pirate clan. 
Sometimes the senior pirate leader on the vessel itself, with 
whatever mechanism, the shipping line, the owners of that 
vessel want to perform that negotiation.
    We do not get the coalition or any of the nations get 
involved with the negotiation process. That is not in our lane. 
It is not our job to do that. We do not want to do that.
    But we do monitor, through any technical means that we have 
available, to monitor the health and well being of the 
hostages, the mariners that are on board, how much fuel they 
have, how much water they have, are they their food.
    So we have an understanding of where we are in the 
negotiation process. Average time from the attack to release of 
the vessel averages around 45 days, $1.5 million to $2 million 
ransom. That was skewed a little bit with Faina, which was a 
vessel that was carrying T72 tanks and large percentages of 
RPGs.
    We did monitor that and kept a cruiser or destroyer on it 
so that those weapons didn't get offloaded and further 
destabilizing a destabilized place. That was a fairly long 
negotiation process for that one to occur.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    In December, I guess, 2008, and I think Mr. McHugh 
mentioned that, the United Nations passed Resolution 1851 that 
allows states to use land-based operations in Somalia for 
counter-piracy.
    Does the Department of Defense have any intention to combat 
piracy within Somalia?
    Ambassador Mull. I will be happy to take the lead in 
answering that. On a policy level, while we sought in the 
negotiations for the Security Council resolution to give that 
authority to any nation willing to take it, we do not plan, at 
this time, to conduct any counter-piracy operations on land.
    Mr. Ortiz. So we don't have anybody willing to take it.
    Ambassador Mull. None of our other coalition partners as of 
yet have expressed an intention to do that. But in the 
negotiations up at the United Nations to put that language in 
the resolution, it was to plan for what would happen if a 
member of the international coalition were pursuing a pirate 
and the pirates managed to escape and get up on land, would we 
need authority to go after them and pursue them.
    And so just to be safe, we sought that authority within the 
resolution. But there are no plans to conduct counter-piracy 
operations on land.
    Mr. Ortiz. Now, I know that we have a new command, the 
Africa Command. What is their role now with these piracy 
activities?
    Mr. Pike. The U.S. Africa Command does have the geographic 
responsibility for it if there would be operations in the 
Somalia territory, if you will.
    While we understand that there is a maritime component 
which is clearly in the Central Command's area of 
responsibility, the land-based operation would be under the 
U.S. Africa Command.
    At present, as has already been stated, we do not have any 
intentions to forward any active operations on land. That does 
not preclude that and, in fact, the Defense Department is 
looking at that, but there is no such intention at this point 
to advance that.
    Mr. Ortiz. Do you think that the pirates know what is in 
the pipeline? Do they know what these ships are carrying? Do 
you think that somebody might be giving them information as to 
what is moving along the pipeline so that they know what ships 
to attack?
    Admiral Gortney. Sir, I will take that. We do not see them 
targeting any particular vessel, have any foreknowledge or any 
intelligence of the vessel that they might want to take.
    They really just look for the soft target that they might 
be able to get on board. Early on, we saw, when the maritime 
security patrol area as a little further to the north, it was 
in cell phone range. We did get indications that one piracy, 
one skiff missed an opportunity, he would call a buddy up the 
shipping lane and say, ``This vessel is coming, you might be 
able to get on board.''
    It is one of the reasons why we moved the maritime security 
patrol area farther to the center of the Gulf of Aden.
    Mr. Ortiz. Can I just have one last question?
    You mentioned that once they are apprehended and you have 
got those pirates in custody, that they are turned over for 
prosecution. They are turned over to whom to prosecute?
    Ambassador Mull. As we mentioned earlier, we have concluded 
this memorandum of understanding with the government of Kenya 
and just today they did accept seven pirates with packets of 
evidence that our Navy managed to collect in a particular 
incident and the Kenyan foreign minister has said that he would 
welcome--this is in their economic interest, because Mombasa is 
a key--the Port of Mombasa is a key source of wealth for them.
    And so because of that, the Kenyan government says that 
they would be welcoming any pirates that the international 
community can provide them for prosecution.
    There are other states in the region. Tanzania has 
expressed some possible interest and we are exploring that with 
them. Of course, it is a little farther away.
    The challenge we run into, sir, is very often you can't 
catch pirates in the act of committing. You can suspect that 
they are pirates, but without any evidence. And without any 
evidence, in cases like that, we really have very little option 
under international law except to certainly take their weapons 
away from them, but then release them.
    Mr. Ortiz. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Fleming, please.
    Mr. Fleming. Thank you, Mr. Chairman.
    When we prosecute these criminals, what law or laws do we 
prosecute them under or what? Is it international law? Is there 
state law? How do we approach that?
    Ambassador Mull. Well, our authority to capture pirates is 
based very much on international law and U.N. Security Council 
resolutions. But the actual prosecution is based on national 
law.
    So when the Kenyan government prosecutes these seven 
pirates that we have just turned over to them, it will be based 
on Kenyan laws against piracy.
    Similarly, if there were ever a U.S. victim of one of these 
attacks or a U.S. shipping line that were a victim, our Justice 
Department has said that it would favorably consider 
prosecuting such apprehended pirates and, again, it would be on 
the basis of American national law.
    Mr. Fleming. Thank you. With any kind of crime, it is 
always an issue of risk and reward and, obviously, you want to 
do what you can to increase the risk for the criminal and lower 
the reward.
    Has there been an effort or plan to have decoy ships or 
something that would kind of pull them in and a little bit of 
honey, if you will, that will attract them and then create a 
high enough risk that that is going to make them want to go 
another direction?
    Admiral Gortney. We contemplated that a few years back and 
rejected it as being not as effective. We think a combination 
of military presence and working with the shipping industry has 
a higher probability of success.
    We have put a slide, I hope you have it in front of you, of 
campaign results. If you look at the lower left-hand corner of 
that slide, it has two columns per month. The first column is 
in red, which is the number of successful attacks. It is not 
cumulative. It is for that month.
    The next bar is either green or blue, green if that bar is 
unsuccessful attacks and if it is in green, it is because the 
shipping industry, the merchant ship itself took defensive 
action and it was successful in breaking it up. If it is blue, 
it was because of the military.
    You see the combination of that is why it has been--the 
combination of it is having a deterrent effect, but not as 
successful an effect that we are looking for until last month.
    If you look at it even through the month of January, the 
number of attempts continued to be on the rise, which was 
telling us our campaign plan wasn't working. It isn't the total 
number of successful attacks that we are using for our metrics, 
it is we want to drive the total number of attempts down.
    So in order to do that, you need to disincentivize piracy, 
which is part of your question. Two ways to do that. One is 
don't pay them. But the shipping industry has said they are 
going to pay them.
    The second thing is we have to disincentivize another 
mechanism and that is where, in the middle of the month, 
working to the memorandum of understanding with the Kenyan 
government that when we capture these pirates, we have a 
mechanism to take them to a court of law, that are suspected 
pirates, suspected criminals at that point, try them; if found 
guilty, hold them accountable for their actions.
    And so we think between the combination of all of that is 
what is having our success right now. The question is where 
will we be a year from now. Will we continue to be effective?
    Sir, as you said, there is a lot of resources being 
invested into this. Will the E.U., will NATO, will the other 
nations continue to be there?
    Fifth Fleet, United States Navy, will be there, combined 
maritime forces will be there. And so keeping this 
international support down there to help while we work the 
other avenues is very, very important.
    Mr. Fleming. And finally, is there any effort by the 
shipping industry to harden their ships, make them faster, make 
them sit higher in the water or do any of the other things that 
make them less of a target?
    Admiral Gortney. Yes, sir. We share with them best 
practices, lessons learned, how to harden the target, the speed 
and maneuver. Some vessels, though, just can't go any faster or 
they are laden, so they are going to be low to the water or 
they are designed to be low to the water.
    And then you use mechanisms such as put barbed wire around 
the low areas so that it is hard to get on board. Embark 
security guards, we see instances of that, using non-kinetic 
and kinetic measures with security guards is a last line of 
defense. Non-kinetic measures, Long Range Acoustic Devices 
(LRADs), fire hoses, posting lookouts.
    The shipping industry have really leaned their crews out. 
So they don't have the manpower to post the lookout. So they 
have to put additional people on board and, once again, that is 
the line of defense and that statistically has proven to be the 
most effective reason for unsuccessful attacks.
    Mr. Fleming. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank you gentlemen for being with us today.
    Ambassador Mull, I am curious. Is the State Department 
empowered to say that an attack upon an American vessel will be 
considered an attack upon America and no matter who apprehends 
the pirates, we will try them and, if convicted, detain them in 
an American prison?
    Do you have the legal authority to do that at this time?
    Ambassador Mull. Our basis for pronouncing on any kind of 
piracy is really based on recognized international law of the 
high seas in that a piracy attack is a crime.
    We wouldn't really consider it an attack on the United 
States----
    Mr. Taylor. Just for clarification, it has always been my 
understanding that an American flagged vessel is considered a 
piece of America.
    So would that not be a crime on America?
    Ambassador Mull. Yes, it very much would be.
    Mr. Taylor. Okay. So let's follow up, then. To what extent 
is our State Department putting out the word that an attack on 
an American flagged vessel would be treated as an attack on 
America, and that no matter which country apprehends the 
criminals, that we would expect them to be turned over to a 
United States court of justice, tried in American court, and, 
if convicted, detained in an American facility?
    Ambassador Mull. The decision----
    Mr. Taylor. I think that would be a very strong message, 
and if you don't have the legal authority to do that, I would 
like to give you that legal authority. So let's get that 
clarified right now, if we can.
    Ambassador Mull. The decision to prosecute really rests 
with the American law enforcement community, but the Justice 
Department or the respective U.S. attorney, it would be his or 
her decision to decide whether or not to prosecute a case.
    And so as part of our international engagement, we have 
been very much seeking Justice Department authority to say that 
to our international partners, that we are eager to prosecute 
people.
    Mr. Taylor. Ambassador, you know where I am going. I would 
like, in writing, from you, an answer to that question.
    Do you have the legal authority to say what I just asked 
you to say and then to back that up in the American courts, and 
if not, why not? So that if that is not the case, we can 
correct that as a legislative body.
    Ambassador Mull. Well, we can say it is a violation of U.S. 
law. The decision and the authority to say that is 
unquestioned. It is a matter of fact.
    But the decision--the second part of your question, sir, 
about that we will prosecute the case, that would depend on----
    Mr. Taylor. Well, Mr. Ambassador, I very much appreciate 
that, but I had the pleasure of a briefing by the admiral in 
December over in Bahrain. He let it be known to the delegation 
that part of his problem was if someone is caught, there was no 
one to take the criminal.
    Now, I am old enough to remember when the world had a 
selective outrage when it came to hijackings. If our plane was 
hijacked, we were outraged. If a plane coming from a perceived 
enemy of the United States was hijacked, we thought it was 
okay.
    And only after several tragedies did the world community 
say hijacking is wrong no matter where it occurs. I am talking 
about of aircraft.
    I think it is time for the world community to do that. Now, 
until we can get the world community to do that, at least as 
far as this nation is concerned, I think a strong message 
coming from our White House, from our State Department, along 
the lines of what I just said, would be very beneficial.
    If you don't have the legal authority to do that, I need to 
know that so that we can address that.
    Ambassador Mull. Well, we do. I am happy to say that and 
any State Department official would say that a crime against 
America, that we have the right to pursue and certainly the 
intention to pursue it.
    It is just when it gets to individual cases, it would be up 
to the Justice Department to make the call on individual cases. 
But as a general principle, when a crime is committed against 
Americans or American property or our assets overseas, 
absolutely, we have total authority to see a prosecution of the 
perpetrators.
    Mr. Taylor. To what extent are you pursuing some sort of an 
international agreement, keeping in mind that a great many of 
these vessels are flagged in Panama, for example?
    I would think the thought of spending time in a Panamanian 
prison might be a deterrent to that crime.
    On the flipside, I have never been to Kenya. So I really 
know nothing about the country, but I have got to say there is 
within me a certain concern that there is a lot of money 
involved here. Let's make sure that that person stays in prison 
once he gets there. And who is going to track that?
    Secondly, what the admiral didn't touch on, Mr. Chairman, 
it is my understanding that many of these pirates are 
represented by some of the most prestigious law firms in London 
and, it has become a business.
    It has become that sophisticated and I think we, as an--
first, as our country, ought to do it independently and then as 
part of the international community take the steps to address 
this before it gets any further out of hand.
    Thank you, Mr. Chairman.
    The Chairman. I think a clarification from the Justice 
Department, Ambassador Mull, might be of some help on that 
issue.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Are these pirates rich people getting richer or poor people 
trying to feed their family?
    Admiral Gortney. They are poor people trying to pay their--
the pirates themselves that are doing--that are in the pure 
execution mode are just trying to make a living. We do not see 
there is--the clan is fairly organized. There is a hierarchical 
process. There are different skill sets. But at the end of the 
day, the ones that are actually doing--taking the--making the 
piracy attempts are just trying to make a living.
    Mr. Bartlett. I understand one of the big problems is--
well, first of all, these people have learned that crime really 
does pay in that part of the world, doesn't it?
    Admiral Gortney. Yes, sir.
    Mr. Bartlett. Because generally, getting ransomed and if 
they are caught, I understand that there is a problem in 
finding a legitimate courts to try them.
    Admiral Gortney. Yes, sir. That was why we felt that we 
developed our campaign plan was to increase international 
support, more navies to work with the shipping industry and the 
most important tool that we needed was a method to, when we 
capture them, we have the authorities to capture them and rules 
of engagement to capture them all along, but when we capture 
them, we had no place to take them to try them and, if they 
were found guilty, hold them accountable for their actions.
    That is why the most significant, decisive event that 
occurred occurred when the State Department worked that 
agreement with Kenya to take the pirates that we think--that we 
are pretty confident we have the evidence that they are asking 
for to try them and hold them accountable.
    Mr. Bartlett. Is there no world court that could try them?
    Ambassador Mull. No, sir, there are not now. There have 
been some proposals of creating a new international tribunal, 
perhaps under the aegis of the United Nations. The U.S. view of 
that is that the number of pirates involved would not justify 
the many, many millions of dollars that would be required to 
stand up that court.
    So we think a quicker, a cheaper and a more efficient way 
is to use the national legal authorities with Kenya, with other 
countries in the region, or, when necessary, using our own 
courts.
    And if I could just follow up, actually, to Congressman 
Taylor's question by commenting that today, for example, we are 
meeting legal authorities of the 28 countries that participate 
in this contact group. The legal authorities are meeting in 
Copenhagen today, in fact, to get a broader consensus about how 
to best use those national authorities in prosecuting pirates.
    Mr. Bartlett. Would it be simpler simply to modify the 
charter of an existing world court so that they could do this?
    Ambassador Mull. That is one possibility. We could look at 
the international criminal court, for example. But part of the 
challenge in that is that these courts do not have the 
expertise on their staff. So it would require, again, an 
expenditure to get them smart enough to try these cases.
    But then there is the broader problem of what you do if 
they were convicted in an international court. What would you 
do with them then? There is no such thing as a world prison. So 
there would have to be some mechanism through which pirates 
could then be incarcerated and held, which would, again, be a 
significant expense.
    In looking at all of these options, we believe the national 
route is the more efficient way to go.
    Mr. Bartlett. I have a problem with renditions that turn 
criminals over to countries and courts that do not adhere to 
the same civil liberties protections that we should adhere to.
    I would be much more comfortable and I think that the world 
generally would be much more comfortable if these criminals 
were turned over to an international criminal court, where I 
think most everybody feels that defensible civil liberties are 
practiced.
    Shouldn't it be fairly simple simply to modify the charter 
of an existing world court? They have to learn that crime 
doesn't pay. As long as it pays, they are going to keep doing 
this.
    So we have to do something so that crime doesn't pay. There 
has to be a certain punishment. It has to be swift and sure and 
it has to be adequate to deter future potential crimes.
    Ambassador Mull. Yes, sir. It is an option that remains 
under consideration and just because we are using national 
authorities now doesn't mean that we would rule that out.
    That is one of the purposes of this meeting in Copenhagen 
today is to explore whether or not that might be a way of 
moving forward. Our own judgment is that it would take a while 
to do that. We would have to work through the United Nations to 
alter the authorities of the existing courts.
    As you may know, sir, U.S. policy on these courts has been 
somewhat skeptical of these courts out of fear that what 
happens if an American citizen ends up getting caught up in one 
of these international courts.
    So we would have to work that whole process through the 
United Nations. In the meantime, we don't want to let that get 
in the way of putting pirates in jail now. But it is an option 
that we continue to consider with our international partners.
    Mr. Bartlett. Thank you, Mr. Chairman.
    It is everybody's problem. It is not just our problem.
    Thank you.
    Mr. Wycoff. If I may just add one comment, please, and that 
is that the State Department and our interagency partners are 
very clearly focused on the legal and due process aspects, the 
humanitarian law and so forth, of how piracy suspects are 
treated.
    We take your concerns about local courts and 
administrations and due process of law very seriously and that 
is part of this process. The legal affairs bureau or legal 
attaches in the field and so forth are all part of a combined 
effort to make sure that those rights are respected.
    The Chairman. Thank the gentleman.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Not too long ago, I think it was a Chinese vessel that was 
detained and then ransomed and the ransom was paid and 
apparently the weather was bad and the upshot was that a number 
of the pirates drowned and there was some publicity about that, 
and I was really struck by the statement of the uncle of one of 
the pirates who had drowned.
    He expressed outrage with the delay had resulted in this 
bad weather and the uncle felt that really those folks who 
had--that others were actually responsible for the death of his 
nephew rather than the nephew being responsible for his own 
death because he is a pirate.
    It is as if the view of the family is that this is a 
legitimate business and somehow the system has wronged the 
family by making it a little tougher to get the ransom money 
home. It is really just kind of stunning.
    And to pick up on Mr. Bartlett's inquiry, how do we 
increase the costs so that we discourage the behavior here? I 
find myself wondering if, say, insurance companies that are 
probably losing a lot of money covering claims haven't hired 
mercenaries, essentially, to ride around in slow, low boats, as 
you described them, Admiral, and, when attacked, kill the 
attackers and with the idea that if you do that often enough, 
maybe that will discourage some of this behavior.
    Is there a problem with the law of the seas that would 
somehow prohibit or the law of England probably is where an 
awful lot of these maritime insurers are located, would 
prohibit these insurers from doing that, from hiring boats to 
go out there and lessen the likelihood, lessen the enthusiasm 
for doing this?
    Ambassador Mull. Yes. In fact, sir, a number of private 
security firms around the world have expressed an interest and 
have, in fact, marketed themselves to shipping lines to provide 
exactly the service that you describe.
    Many of the shippers, in our contact with them, are very 
reluctant to take on more aggressive means of self-defense, 
because they believe that it will have a pendulum effect in 
that the more violent or aggressive they become in their self-
defense measures, the more violent and more armed the pirates 
will become.
    So that the prevailing view within the international 
shipping community has been to adopt some of the more passive 
self-defense measures that Admiral Gortney mentioned, which 
are, in fact, quite effective in repelling the vast majority of 
pirate attacks.
    Mr. Marshall. So has there been some--apparently, you are 
saying that there has been some conscious decision not to do 
this, not to engage in that kind of behavior, not to hire 
people to float around in small vessels waiting to be attacked.
    Ambassador Mull. That is right. Most shipping companies do 
not want those sorts of services.
    Mr. Marshall. And Somalia is such a failed state that it is 
just impractical to think that somehow we can entice Somalia 
into dealing with the pirates itself.
    Mr. Wycoff. As I mentioned in my statement, there is a 
comprehensive set of policies and efforts to try to help 
Somalia regain its place in the--its stability, its internal 
security.
    We are certainly in touch with Puntland authorities, a lot 
of this is based in Puntland, and are advocating that 
additional measures be taken. But I cannot say that that is a 
short-term solution to this. It is very much a mid-term and 
longer-term approach, one that we are very focused on.
    It is an interagency process, State Department, AID, 
Department of Defense, a number of partners working on it.
    But the short-term--the measures that we have discussed 
this morning are really kind of the best short-term approach to 
dealing with the problem.
    Thank you.
    Mr. Marshall. Has anybody considered, I guess, this may be 
impossible or somehow illegal, employing--I don't know who you 
would call on. You have got the pirates out there making money 
attacking ships and taking them and holding them for ransom.
    How about paying somebody to make money attacking the 
pirates? And to the extent that you see significant reduction 
in the pirating, then pretty generous payments are made. Just 
let sort of a lawless area work it out.
    Mr. Wycoff. Our approach on that, as I say, has been to 
work with the authorities that we are able to have contact with 
in Somalia and to try to build respect for the rule of law and 
a political process there, an inclusive political process that 
deals with the basic security problems in Somalia, and it has 
been limited to that.
    Thank you, sir.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. Before I call on Mr. Coffman, let me ask--and 
I don't know, Mr. Pike, you or the admiral might answer the 
question. The incidents of piracy in the Malacca Straits have 
gone down.
    Why is that?
    Admiral Gortney. Working with my counterparts in Seventh 
Fleet, it is because the governments that their waters, 
territorial waters share those straits took activity to stop 
the--to prevent the actions from occurring.
    So it was the states themselves, the nation states that 
share those waters that took it upon themselves to take action.
    The Chairman. So the safe havens in that part of the world 
have disappeared.
    Admiral Gortney. I wouldn't say they have disappeared. They 
are significantly reduced.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I think the first question, I think, in part, was already 
asked, but let me restate it and get some clarification.
    And that is, in Iraq, obviously, we were successful in 
bringing former insurgent elements, Sunni Arab folks on our 
side through the awakening councils.
    Has there been any discussion for doing the same with some 
of these clans in Somalia to get them to assist by providing 
some type of patrols in their area to counter the pirate 
element?
    Mr. Wycoff. Yes. What I would say is that there is this 
Djibouti peace process, the formation of this unity government. 
President Sheikh Sharif Sheikh Ahmed is engaged in a process of 
outreach to all of the communities in Somalia with the 
intention of establishing a functional government in all the 
areas of Somalia that would be in a position then to enforce 
the rule of law.
    Mr. Coffman. Well, my question is in terms of our 
involvement or outside of Somalia, is there any discussion in 
the international community of engaging some of these clan 
elements in terms of enlisting their support and helping to 
patrol these waters?
    Mr. Wycoff. Specifically in terms of helping to patrol 
these waters, two things I could say, Congressman.
    One is that the Puntland government has, as I understand 
it, a contract with a private Somali company that has several 
boats--the admiral may know more about this than I do--and 
there is some nascent effort there that might be built on.
    The other is that there are representations with Puntland 
authorities to be more serious in terms of rule of law in their 
own area. As you know, Somalia is a very difficult operating 
environment.
    So at this stage, I could not assure you that that would 
bear fruit and would be a way forward, but there is a larger 
process that we hope will bear fruit in the longer term.
    Admiral Gortney. We have turned over, on a couple of 
occasions, suspected pirates that we lack the evidence to the 
Puntland coast guard. We see them patrolling in a small effort, 
but they are just so small, the problem is so large, that they 
are not very effective.
    Mr. Coffman. We obviously have a profile of what these 
folks look like. If they are engaged in fishing, aren't they a 
little closer to the coast than if they are not engaged in 
fishing?
    I mean, is there a way that we can establish a pattern of 
behavior whereby we can board these vessels and search these 
vessels?
    Admiral Gortney. One of the reasons we moved, if you look 
on the slide, the maritime security patrol area down in the 
center of the Gulf of Aden, when it was up to the north, it was 
actually intermixed with some of the prime fishing grounds just 
to the south of Yemen.
    And so it was very difficult to differentiate between the 
types of vessels. So we moved it further out and that did help 
a little bit.
    That said, mother ships are pirated fishing dows and the 
skiffs that the pirates are working from are the same skiffs, 
same color. So it is really when we get on top either with 
maritime patrol or with helicopters or with a ship and we look 
inside these skiffs and we determine that they don't have nets 
or baskets and they have AK-47s, RPGs and ladders, we know that 
they are not involved in fishing and that is when we take 
those--we take them, we disarm them, we take their pictures, we 
fingerprint them, biometric them, and then we release them if 
we did not catch them in the act.
    Mr. Coffman. But we obviously take those weapons.
    Admiral Gortney. Absolutely. Actually, if we are going to 
take them and try them, we keep some for evidence. Otherwise, 
we throw them all overboard.
    Mr. Coffman. Very well.
    Mr. Chairman, I yield back the balance of my time.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, for holding this 
hearing.
    It has always been said that money is the root of all evil, 
and so since money is the root of this problem, I want to talk 
about the money.
    It would seem to me that it would not be feasible for these 
pirates to be able to accumulate the money, hold it and hold 
onto cash money.
    Is that the way the ransoms are paid out, in cash, and if 
so, is it American dollars? And if so, what is the current 
state of the Somali banking system? I would think that it would 
be darn insistent or, at the very least, just not sophisticated 
enough to fill in dollars.
    Also, I understand that these exchanges of the moneys made 
by air drop, I want to know if that is the way it goes all the 
time. I also want to know how do the pirates communicate with 
the victims, in other words, they get a ship and want two 
million bucks? Where does this money end up?
    It would seem that we should be able to track the money. It 
would seem to me that we would have a theory as to how that 
money is used. Is it deposited somewhere and if so, where? And 
ultimately, I would like to know who is behind this whole 
piracy issue, because I just have a hard time thinking that a 
small band of uneducated--I am making assumptions--uneducated 
Somalis would have the capability for pulling off something 
like this repeatedly.
    Admiral Gortney. The exact transfer is pretty low tech. The 
negotiation is completed. The negotiations occur over primarily 
Inmarsat, satellite radio, between the pirate negotiator and 
whoever is handling the negotiations for that shipping line, 
the owner of the vessel.
    Mr. Johnson. By telephone or cable?
    Admiral Gortney. It is a satellite phone, satellite 
mechanism.
    Mr. Johnson. Do we have the capability of tracking the 
phone call from the pirate to the victim?
    Admiral Gortney. We use all mechanisms available to monitor 
the negotiation process. Once the negotiation has been 
completed, the cash, it is just pure cash, usually American 
dollars, and we are seeing now being parachuted in to where the 
pirated--near to the pirate vessel.
    The cash is distributed among the pirates and where it goes 
once it is ashore, I am not certain. But I do know that we are 
looking into that process.
    It is organized crime. In their sense, it is organized 
crime. It is clear about that. There are hierarchies. There is 
leadership and we do see that and we are getting a better 
understanding of that network as we proceed with our interviews 
and our collection efforts.
    Ambassador Mull. I would just add to the admiral's 
statements that early in our diplomatic efforts on this, 
earlier this winter, we did pursue with our partners the idea 
of adopting some kind of code of conduct that would regulate 
the payment of ransom, with a view of trying to diminish it, to 
stop the flow of funds to them.
    But the answer from all of our European allies was that 
they would not be willing to support it at this time because 
they fear--they don't want to risk the lives of their citizens 
who might be at risk of being killed in the event a ransom 
isn't paid.
    We also explored the prospect of looking at what sort of 
international financial controls are in place, but the problem 
we run into, as the admiral mentioned, is most of these 
transactions are cash. And so it is very difficult to use the 
international banking system to stop it.
    Mr. Johnson. Is that dollars, American dollars? That is how 
the ransoms are paid.
    And what is the national currency----
    Ambassador Mull. Also, pounds, as well. British pounds, 
also, are commonly used.
    Mr. Johnson. But what is the currency being used in Somalia 
currently?
    Mr. Wycoff. There is a Somali currency in circulation. It 
remains in circulation. But I believe there are also money 
changers and that dollars are accepted and can be used to gain 
value to make purchases and so forth in Somalia.
    Mr. Johnson. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you for having such extraordinary people here today to 
discuss piracy in the 21st century.
    Who would ever imagine?
    And in particular, Admiral Gortney, I want to congratulate 
you on your command, the Fifth Fleet. It is extraordinary the 
success of the Fifth Fleet which has been in the Persian Gulf 
for over 50 years.
    I had the opportunity to visit in Bahrain. I was so 
impressed by the people of Bahrain. I appreciate so much the 
hosting by the Kingdom of Bahrain of the Fifth Fleet, and it 
has been so mutually beneficial, providing security for the 
region, leading to development beyond imagination.
    When I visited Bahrain, it just was really heartwarming to 
see the success of the people in that country and the region.
    Another part of encouragement to me is combined Task Force 
151, working with nearly 20 nations to try to address the 
problem of piracy.
    And if you could explain how this command, which was 
established in January, is working. I am particularly 
interested in our new partner, India, a great ally of America 
today, but also working with the navies of China and Russia.
    Admiral Gortney. Well, thank you for those kind words, sir, 
and I will pass them on to the sailors, Marines and Coast Guard 
personnel that are there, and to the Kingdom--151, currently 
commanded by an American one-star, Admiral Terry McKnight. 
Eventually, we are seeking another coalition nation to command 
it, and we see opportunities there.
    We work coordination efforts. Really, the level of 
coordination is different with different nations that are not 
in the combined task force. In the case of the Indian navy, we 
are in very close communication with them, sharing information, 
exchanging where we would like them, where they are able to go.
    Additionally, we provide them logistics support. As a 
matter of fact, for all of the nations that are down there, we 
provide refueling at sea and logistics support, the U.S. Navy 
does and the combined task force does, with the exception of 
Saudi Arabia, Malaysia, Russia and China.
    Russia and China brought their own ships. Malaysia takes 
care of themselves and we are working on the capability to 
expand Saudi Arabia's capability to do that.
    But that level of exchange, once again, occurs differently 
based on the technical needs that we have with those different 
nations.
    With India, they do have CENTRICS and we use CENTRICS with 
them.
    Mr. Wilson. And, again, we do appreciate your personnel and 
the success they have made.
    A pleasant surprise to me, Secretary Wycoff, was to find 
out that there is a developing government, functioning 
government in Somalia. I have always been concerned about the 
failed state as to a haven for terrorism and, obviously, 
piracy.
    And you have already addressed on it about the unity 
government, but it is just great to see efforts being made to 
establish a government in Mogadishu, the security forces from 
neighboring countries, and then the economic assistance from 
regional countries.
    Can you go further into that?
    Mr. Wycoff. I am happy to, sir. I do not want to leave you 
with the impression--thank you for your comments--do not want 
to leave the committee with the impression that we are on the 
certain road to success in Somalia.
    Mr. Wilson. Hey, any success is a surprise to me.
    Mr. Wycoff. Thank you, sir. And there is some optimism in 
the international community on Somalia, but I caveat that, some 
optimism. There was, for instance, an international contact 
group meeting on Somalia attended by over 30 countries last 
week and a half a dozen international organizations, regional 
organizations.
    So there is a tremendous amount of goodwill toward Somalia 
to try to help them as they work through this process. But, 
also, there is a very strong extremist element, al Shabaab 
comes to mind, for instance, but there is a very strong 
extremist element in Somalia that are acting as spoilers that 
continue to attack civilians, that continue to attack 
expatriates, foreigners who are humanitarian workers who are 
trying to help deal with the humanitarian tragedy in Somalia.
    So there is a complex mix underway in Somalia and, as I 
say, the unity government is taking steps to try to move in the 
right direction to bring more Somali elements into this 
political dialogue and that is getting widespread support.
    I would just note, for instance, that the Arab League has 
pledged $1 million to support this process. The African Union 
is deeply involved, as is the U.S. And it is multifaceted. It 
is not just this political effort, but there are also a number 
of partners that are trying to work with the unity government 
to establish a better security force, a joint security force 
that would take root, I think, in Mogadishu and then would hope 
to go farther into Somalia.
    Mr. Wilson. Thank you.
    The Chairman. Thank the gentleman.
    We have three members that still haven't asked questions. 
We would like to squeeze them in, if at all possible, so that 
the witnesses won't have to come back.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    A very quick question. The pirates, is that a growing 
industry? We talked about these are people trying to feed their 
families. Is it basically the same clan?
    The attacks are up. Is it a growing industry or is it the 
same people attacking more?
    Admiral Gortney. We saw a growth industry specifically in 
the middle of August, when, in 2 days, we went from three 
pirated vessels to 12 pirated vessels, and it was the result of 
the clan on the north coast of Somalia, and, clearly, we saw 
more and more suspected pirates attempting to pirate vessels.
    And so our goal has always been to curb that growth, 
actually drive the demand signal down.
    Mr. Kissell. The ship that had the tanks on it, would that 
have fit the definition of a low, slow ship?
    Admiral Gortney. It was, sir.
    Mr. Kissell. Do the pirates have any sense, when they are 
going out, of what may be on a ship or are they just going 
after what is there?
    Admiral Gortney. They are going after any target of 
opportunity that they think that they can get on board, soft 
targets.
    Mr. Kissell. Is there any sense, in their minds, from what 
you all could see, they overreached in all the attention they 
got when they got the ship with the tanks on it, that maybe, 
``Hey, we need to go lower profile?''
    Admiral Gortney. We did have efforts that, when they got on 
board, they saw what they had, they were very surprised what 
they had and, initially, they were concerned about that. Then 
they saw an opportunity that they might get higher ransoms from 
it, which was exactly what drug on why motor vessel Faina was 
held for the length of time that it was.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Gortney, just a question. In looking at the 
counter-piracy mission, as it expands and as it emerges, can 
you talk a little bit about the unique training and equipment 
requirements that you are facing there, and what capabilities 
might be able to improve the Navy's abilities to counteract 
these particular threats?
    Admiral Gortney. We see no shortfalls in either equipment 
or training of the sailors, Marines or Coast Guardsmen that are 
involved in this. Through the fleet response training plan that 
all of the U.S. naval vessels go through, they are taught the 
skill sets necessary to execute the mission and the command and 
control of the mission.
    Mr. Wittman. In looking at this threat, in total, and, of 
course, obviously, having small crafts around the ocean and 
coming up on these different vessels, do you see, is there a 
benefit for the Navy to maybe be looking at a different class 
of ships in order to be able to counteract that, especially 
across the variety of different conditions and shallow water 
that we are facing these particular threats.
    And I am just looking at that into the future, and if you 
believe that the current mission set might generate requests 
for new needs within the shipbuilding realm.
    Admiral Gortney. We see the forces that we have and we are 
currently procuring adequate to do this mission. It is a fairly 
low-tech war--I am sorry, excuse me--it is fairly a low-tech 
capability that we need in order to do it.
    We need good sea keeping capability. We need the 
sustainment. And everything that we currently have and we are 
projecting to build, we think, will be adequate.
    Mr. Wittman. Do you think the demand generated now 
currently by the number of piracy events going on out there, do 
you believe that that has, in any way, challenged NAVCENT in 
its ability to meet its mission set across the board?
    Admiral Gortney. No, sir. We are able to meet all of the 
tasking that Central Command has given us. The location and the 
inherent flexibility of the naval forces when there is a need, 
we are able to position those ships where they are needed in 
greater detail.
    That is the real strength of the coalition with the numbers 
of ships that are involved is that I can pull the Navy, U.S. 
Navy ships out to go do the mission that the other nations 
don't have the authorities to execute and they are still able 
to do the counter-piracy mission and we continue to command 
that mission through the combined maritime forces.
    So it is a good model.
    Mr. Wittman. Do you see this particular threat continuing 
to emerge? Do you see it as topping out? What do you see sort 
of the future of the challenges that we face in these areas 
with piracy?
    Admiral Gortney. Piracy has been around for centuries. It 
will be around for centuries more. It is just criminal activity 
at sea.
    My concern now is where we will be a year from now. Will we 
have the level of international effort to assist with the 
counter-piracy? Will our efforts to try and hold suspected 
pirates accountable for their actions? Will it be effective? 
Will it have the enduring effect that we are looking for?
    We don't know. So I see that it will be episodic in the 
future as tactics, techniques and procedures change on both 
sides to keep the piracy at a level that the international 
community is willing to sustain.
    The Chairman. Thank you very much.
    Mr. Heinrich, grab it up.
    Mr. Heinrich. Thank you, Mr. Chair, and I will keep this 
short.
    I am curious about the relationship with declining fishing 
stock resources in the Gulf of Aden and what, if anything, can 
be done regarding that that would reduce the tendency of piracy 
in the area.
    Admiral Gortney. The best fishing in the world, I would 
say, down there. It is really phenomenal fishing opportunities, 
which, if you study it, is one of the root causes that people 
are coming down there and fishing out illegally out of Somali 
waters.
    So whether or not it is depleting the stocks or not, we are 
going to have to get back to you on that. I just don't know on 
the rest of it.
    Ambassador Mull. I would add to what the admiral said that 
we share your concern that a motivating factor in all of this, 
Congressman, is it is a very emotive issue, really, in Somalia 
that these international fishing firms are coming in and 
depleting the fishing stocks there in the region.
    And so one of the goals that we had in standing up this 
international contact group of these 28 countries and six 
organizations that we launched in New York back in January was 
to get all these countries to commit, not only are they going 
to fight the pirates, but they are also going to commit to not 
fish illegally or dump toxic substance into Somalia's 
territorial waters, and to also support the government of 
Somalia's efforts to assert its rights for exclusive economics 
zone, the 200-mile zone under the law of the sea treaty.
    So all of our European partners have pledged to do that. 
Some countries have actually passed laws against it. The 
enforcement is still a little spotty and we will keep working 
on that with them.
    Mr. Heinrich. I think that is an important point and I am 
glad to hear that, because if we are not going to be dealing 
with this 10 years from now, we need to address some of the 
underlying factors.
    I yield back, Mr. Chair.
    The Chairman. Thank the gentleman.
    And the hearing has ended. Special thanks to each one of 
you. We appreciate it. We do have a letter that we will be 
sending regarding the question Mr. Taylor raised, and hopefully 
we will get that back.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]

=======================================================================

                            A P P E N D I X

                              May 15, 2009

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 15, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
